MEMORANDUM

To:       Jack Katz
          Alan Beller
          Corey Booth
          Annie O'Donoghue
          Linda Thomsen                                       ~

From:     Walter   Stachnikov("~/Pt~
Date:     September 20, 2005

Re:       Office of the Secretary (Audit No. 402)


Attached is our audit report on the Office of the Secretary's operations. The report
reflects the comments we received on prior drafts.

We would appreciate receiving any additional comments you have concerning this
audit and the report. In particular, we would like to know whether you found the
audit useful. We also welcome any suggestions from you concerning how we could
improve future audits.

The courtesy and cooperation of you and your staff are greatly appreciated.

Attachment
Cc:     Beth Blackwood
        James Daly
        Jacob Fien-Helfman
        Charles Fishkin
        Dan Lisewski
        Scott Mackert
        Jim McConnell
        Joan McKown
        Barry Miller
        Cynthia Plisch
        Darlene Pryor
        Douglas Scheidt
        Herb Scholl
        Charles Staiger
        Peter Uhlmann
        Bill Wiggins

        Rick Hillman, GAO
     OFFICE OF THE SECRETARY


                     EXECUTIVE SUMMARY
We conducted an audit of the Commission's Office of the Secretary (OS or Office).
The audit found that the Office was generally effective and efficient in its operations,
although some controls and procedures should be strengthened.
We recommend that the Office improve controls over the issuance and collection of
government passports, process public comment letters more effectively, consider
discontinuation of the SEC Docket (Docket), post forms to a central location on the
Commission~ Intranet site (Insider), improve controls for terminating access to
electronic systems when employees separate, upgrade or replace the Integrated
Library System, improve the Library~ acquisitions process, and provide additional
research assistance to Commission staff.
We also recommend that other Commission divisions and offices improve the
accuracy of certain Commission orders, timely forward effectiveness and confidential
treatment orders to OS and post them to Electronic Data Gathering and Retrieval
system (EDGAR), consolidate Commission-wide administrative e-mails, and ensure
that public forms posted to the Internet contain current OMB numbers.
Commission officials began to implement some recommendations during the audit.
We commend them for these efforts.



                   SCOPE AND OBJECTIVES
Our audit objective was to evaluate the operational effectiveness and efficiency of
the Office's activities.
During the review, we interviewed OS and other Commission staff, and reviewed OS
work products and files. We also contacted library staff from the Department of
Justice, the Environmental Protection Agency and the Federal Communications
Commission to benchmark the Commission's library operations and identify best
practices. We also surveyed Commission users regarding the library's operations.
The audit was performed from March 2005 to July 2005 in accordance with
generally accepted government auditing standards.
                                                                               Page2



                            BACKGROUND

OFFICE OF THE SECRETARY
The Office schedules Commission meetings, administers the Commission's seriatim
and duty-officer processes, and prepares and maintains records of Commission
actions.
It reviews all staff documents submitted to and approved by the Commission. These
include rulemaking releases, Enforcement orders and litigation releases, Self-
Regulatory Organization rulemaking notices and orders, and other actions taken by
Commission staff pursuant to delegated authority. The Office also provides advice
to the Commission and its staff on questions of practice and procedure.
OS also receives and processes documents submitted by parties outside the
Commission. These include documents filed in administrative proceedings, requests
for confidential treatment, effectiveness orders for disclosure filings, and comment
letters on rule proposals.
The Office publishes official documents and releases of Commission actions in the
Federal Register and the Commission Docket, and posts most of them on the
Commission's Internet website (www.sec.gov). It also monitors compliance with the
Government in the Sunshine Act and maintains records of financial judgments
imposed in enforcement proceedings


LIBRARY OVERSIGHT
The Commission's Library reports to OS. The Library maintains a Headquarters
Library collection of approximately 625 periodicals and over 15,000 books, contracts
for access to approximately 125 electronic databases for Commission staff, and
manages and helps maintain the www .sec. goy Internet website and the
Commission's Insider Intranet website. It also posts speeches by current and former
Commission staff on www.sec.gov, publishes a monthly information bulletin, and
responds to Commission staff and public research and information inquiries.
The Library is currently involved in several additional projects, including:
   •    Making additional historical Commission documents available electronically;
   •    Posting Commission historical photographs on the Internet;
   •    Implementing a content management system that will automate web
        publishing;
   •    Making EDGAR filings fully text searchable;
   •    Creating digital signatures so that Federal Register documents can be signed .
        and forwarded electronically;
    •   Redesigning the www .sec.gov website and Insider website to add information
        and research content needed by Commission staff: and
    •   Implementing a search engine on The Insider and sec.gov to make searching
        easier and more intuitive.


OFFICE OF THE SECRETARY (AUDIT 402)                                 SEPTEMBER 20, 2005
                                                                               Page3


                           AUDIT RESULTS
We found that the Office was generally efficient and effective in its operations. OS
has cross-trained many of its staff to ensure operations are timely performed when
staff are out of the office.
We identified several areas where operations could be improved, however, as
described below. The Office performs several tasks in cooperation with other
Commission divisions and offices. As a result, some of our recommendations are
directed to other Commission divisions and offices.


PASSPORT LOG
The Office processes Commission staff requests for government passports used for
international travel. The State Department issues the passports, which are valid for
five years. Staff are required to return their passports to OS when they leave the
Commission.
OS maintains an electronic log showing when a passport was requested, issued and
returned. Additionally, it keeps a photocopy of the information page of each
passport, which contains the traveler's name, picture, passport number, and
expiration date. According to the electronic log, since 2001 OS has processed
passports for approximately 550 people. We reviewed a sample of 199 Commission
staff listed in the log and found several discrepancies.
The log indicated that 20 staff left the agency without returning their passports. In
several other instances, the log indicated that some employees were issued more
than one passport. The log did not consistently contain the date when a passport
was requested or received.
OS informed us that 9 of the 20 departed employees were field office staff who were
not required to obtain a general clearance from OS upon departure. As a result,
these employees could have forgotten to return their passports to OS. Of the
remaining 11, 2 were employees who died while employed at the Commission and 5
were senior officers who may not have formally signed out.
The State Department's Chief of Official Travel in the Passport Services Office
informed us that the Commission should attempt to obtain unexpired passports from
separated Commission employees. However, it is not necessary to obtain expired
passports since they cannot be used for official travel.

       Recommendation A
       OS should ensure that, in the future, separating employees return their
       official passports prior to their departure. OS should remind headquarters
       and regional office staff of their obligation to return their passports to OS
       when they leave the Commission. OS could do this by sending an e-mail to
       the administrative contacts.




OFFICE OF TilE SECRETARY (AUDIT 402)                               SEPTEMBER 20, 2005
                                                                               Page4

       Recommendation B
       OS should attempt to obtain all unexpired passports in the possession of
       former Commission staff.    ·

       Recommendation C
       OS should correct its passport log and develop procedures to ensure that
       future entries to the log are accurate and complete.

PUBLIC COMMENT LETTERS

OS Processing
In response to proposed rules, the Commission receives public comment letters by e-
mail and in hard copy. OS processes these letters and makes them available on the
Commission's Internet website.
Currently, OS's web unit processes letters received via e-mail, while OS staff in
another location scan and process hard copy letters. Members of the public often
send the same letter via e-mail and in hard copy. After posting all letters received
(via e-mail and in hard copy) to Internet, web unit staff remove duplicate letters.
Having the web unit handle all letters would be more efficient.

       Recommendation D
       OS should assign the processing of all public comment letters to its web unit
       staff to improve coordination. (OS moved the processing of comment letters to
       the web unit in August 2005.)


Letters Sent by E-mail
OS no longer e-mails a confirmation notice to individuals who submit comments via
e-mail. Such a confirmation notice might reduce the number of duplicate hard copy
letters that are sent to the Commission.

       Recommendation E
       OS should resume sending confirmation notices for comment letters received
       via e-mail. (OS implemented this recommendation during the audit.)


Rule Verification
The public can use a template on the Commission's Internet website to send e-mail
comments on proposed rules and concept releases (proposed rules). The template
contains the file number identifying "the proposed rule.
Although the file number is clearly visible on the public comment form, OS indicated
that members of the public sometimes use the incorrect form for comments on a


OFFICE OF THE SECRETARY (AUDIT 402)                                 SEPTEMBER 20, 2005
                                                                                  Page 5

particular proposed rule. This causes public comment letters to be logged with
incorrect rules, creating extra work for Commission staff.
To remedy this problem, OS could provide the name of the rule as well as the file
number on the template form. The name of the rule will help to ensure that
members of the public are using the correct public comment form.

       Recommendation F
       OS should modify the template forms to display the name of the rule as well
       as the file number, as described above.

       During the audit OS consulted with OIT and determined that this
       recommendation was technologically feasible and planned to
       implement it.

SEC DOCKET

Hardcopy Versions
The Docket is a weekly compilation of Commission public releases available in hard
copy. Each week OS compiles and edits the Docket and forwards it to Desktop
Publishing in the Office of Administrative Services (OAS) for printing and binding.
Most of the contents of the Docket are separately available both in hard copy and
electronically on the Commission's website.
345 hard copies of the Docket are produced each week for Commission staff. The
fiscal year 2004 cost to produce the dockets was more than $200,000, including
production and mailing costs.

Electronic Versions
Desktop Publishing, on its own initiative, has prepared an electronic version of the
Docket (more than 30 years. of the publication have been digitized) at a significant
cost in staff resources. The most recent two years are available to all Commission
staff in a public folder in Microsoft Outlook. However, this folder is difficult to locate
and most staff are not aware of it.
Further, inconsistencies in scanning and formatting the Docket have impaired the
utility of this electronic version, according to OS. Also, some pages do not comply
with section 508 of the Rehabilitation Act. Electronic versions made available to
Commission staff and/or the public need to comply with this section.
Due to these issues, OS would prefer to hire a contractor to prepare future electronic
versions of the Docket instead of relying on Desktop Publishing.

Future of the Docket
Because the Docket is a compilation of public releases, most of which are available
electronically, production of the Docket may no longer be necessary. If necessary,


OFFICE OF THE SECRETARY (AUDIT 402)                                   SEPTEMBER 20, 2005
                                                                                Page 6

however, hardcopy production may no longer be cost-effective. An electronic version
could be prepared and posted to the Insider and/or Internet (which would be
superior to using a folder in Outlook).
A series of decisions need to be made with respect to the future of the Docket, as
follows:
       •   First, the Commission needs to decide how important further production
           of the Docket is, given that most of its contents are electronically
           available elsewhere.
       •   If the Docket is still necessary, the Commission needs to determine if
           publishing an electronic version would be superior to a hard copy version
           (e.g., lower cost, more utility to users).
       •   If an electronic version is chosen as the desired alternative, the
           Commission needs to determine the optimal technology to use and
           whether the historic database prepared by Desktop Publishing meets the
           needs of users and complies with applicable statutes (e.g., the
           Rehabilitation Act).

       Recommendation G
       OS, in consultation with senior mangers from the major program divisions
       and offices that use the Docket, sliould determine whether the Docket is still
       needed by its users or whether its contents are readily available elsewhere
       and its production should be discontinued.

       Recommendation H
       Assuming that production of the Docket is still necessary, OS, in consultation
       with OAS and OIT, should determine whether to switch to an electronic
       version of the Docket and the specifications for an electronic Docket.

ADMINISTRATIVE WEEKLY E-MAIL
Commission staff receive numerous administrative e-mails (e.g., on training,
Commission historical society meetings, parties for separating employees, scheduled
IT upgrades, maintenance, and building repairs). The notices could be consolidated
into a weekly e-mail that would be distributed to all staff and available on the
Insider. For example, if such an e-mail were sent out every Monday, it could list
activities for the week, which could help staff plan their week.

       Recommendation I
       OS, in consultation with the Office of the Executive Director, should explore
       ways to consolidate administrative e-mails into a weekly e-mail that would
       also be available on the Insider.

       OIT indicated that it may not be able to implement this recommendation at
       this time. In the interim, OS is experimenting with weekly notices on the


OFFICE OF TilE SECRETARY (AUDIT 402}                                SEPTEMBER 20, 2005
                                                                                Page 7


       Insider as a possible solution.



DRAFT ENFORCEMENT ORDERS
The Division of Enforcement drafts orders, which are signed by the Secretary's
Office. The orders (from headquarters and the field offices) receive several levels of
review by Enforcement staff and senior management before going to the Office for
final review and issuance.
Although Enforcement staff are supposed to use templates to ensure orders are
properly formatted, OS frequently returns draft orders to Enforcement because they
have missing or incorrect required language, or contain typographical and other
editorial mistakes. In some cases, redrafted orders must be agreed upon again by a
respondent and opposing counsel, which may be time-consuming.

       Recommendation J
       Enforcement should establish a procedure to ensure the accuracy of draft
       orders sent to OS. For example, EnfOrcement could remind staff to use the
       templates and train a staff member (as resources permit) to review all orders
       to ensure accuracy and compliance with appropriate templates.

EFFECTIVENESS AND CONFIDENTIAL TREATMENT ORDERS

Posting on EDGAR
Effectiveness orders state when registra~ion statements filed pursuant to the
Securities Act of 1933 become effective. Confidential treatment orders assure
companies that the Commission will not publicly disclose certain company
commercial or financial information.
The Divisions of Corporation Finance (CF) and Investment Management (1M)
approve both of these orders using paper forms (most originate from CF). OS signs
and distributes the orders to the Office of Filings and Information Services (OFIS),
retains copies, and mails the orders to the companies. OS stamps and seals the
effectiveness orders and forwards them to OFIS for mailing. OS stamps, seals, and
mails the confidential treatment orders.
CF, in consultation with OS and OIT, has been involved in an effort to post the
orders to EDGAR (starting with Effectiveness orders), which would be more efficient
than processing and distributing hard copy forms by mail.


Recommendation K
       CF, in consultation with OS and OIT, should continue its efforts to post
       effectiveness and confidential treatment orders on EDGAR and establish
       timeframes in which to complete this project.


OFFICE OF THE SECRETARY (AUDIT 402)                                 SEPTEMBER 20, 2005
                                                                               PageS


Timeliness
We reviewed several confidential treatment and effectiveness orders and generally
found that CF did not timely forward the draft orders to OS. On average, OS
received effectiveness orders approximately three months after their effective date.
On average, OS received confidential treatment orders at least three months after
the effective date and in some instances one or two years after this date.

       Recommendation L
       CF should establish reasonable timeframes (e.g., within two weeks) for
       forwarding effectiveness and confidential treatment orders to OS and monitor
       staff compliance with the timeframes.

PUBLIC COMPANY REPORTING FORMS
The Office posts public company reporting form templates on the Commission's
website. Based on our review, 15 of the 167 forms on the website contained expired
Office of Management and Budget (OMB) control numbers. We found that OMB had
re-approved the forms, however, a lack of clearly defined procedures among the
organizations involved (CF, IM,.OIT, the Division ofMarket Regulation, OAS and
OS) resulted in a failure. to post the new forms to the Internet.
The Commission's Chief Information Officer (CIO) is responsible for overseeing the
Commission's general responsibilities under the Paperwork Reduction Act (PRA)
and for certifying to OMB that the Commission is complying with PRA
requirements.

       Recommendation M
       OIT should develop a Securities and Exchange Commission Regulation
       (SECR) describing the responsibilities of divisions and offices for updating
       and posting public company forms on the Commission website.

       Recommendation N
       OS should periodically review (e.g., every 6 months) public company forms on
       the Commission website to ensure they have current OMB numbers and
       notify the rule making divisions' PRA coordinators of non-current forms on
       the Internet.

Commission staff began to address this issue during the audit by posting updated
forms to the Internet.


INTERNAL FORMS
Commission internal forms (e.g., annual leave, training, employee clearance, etc.)
are currently found in various places on the Insider and also in Microsoft Outlook (in
the "Publications" folder under "Bulletin Boards"). Many forms are found in both


OFFICE OF TIIE SECRETARY (AUDIT 402)                               SEPTEMBER 20, 2005
                                                                                   Page9

places. The Outlook bulletin board folder is not an official location for forms and is
difficult to find.

       Recommendation 0
       OS should continue its efforts to post all internal forms in one location on the
       Insider.

       Recommendation P
       OAS should remove the internal forms from the Outlook bulletin board
       folder.

OS staff informed us that the Insider website is currently under revision and the
revised homepage will contain a "forms" tab for internal forms.


INTEGRATED LIBRARY SYSTEM
The Library is seeking to upgrade its existing integrated library system or
implement a new system as the current system does not meet its needs. The Library
has requested FY 2006 funds to hire a contractor to evaluate the current system and
make recommendations to upgrade this system or purchase a new system.
An upgraded or new system would help streamline and organize the Library's
operations and better track its collections, contracts and circulated items, and
provide staff with access to information for its electronic databases.

       Recommendation Q
       The Library, in consultation with OIT, should continue its efforts to upgrade
       its automated existing integrated library system or implement a new system.

LIBRARY ACCOUNT MANAGEMENT SYSTEM
The Library uses the Library Account Management System (LAMS) database to
track which Commission employees and contractors have access to electronic
commercial databases such as Bloomberg and Factiva. When Commission
employees and contractors leave the Commission, the Library is supposed to delete
the corresponding user accounts from all systems the Library maintains. Some
Commission employees violate Commission clearance guidelines by failing to inform
the Library of their departure. Contractors are not subject to the employee
clearance process.
As a result the Library is not consistently informed of Commission employee and
contractor departures and therefore, cannot consistently delete user account IDs
upon departure. Library staff informed us that former staff have sometimes
continued to access commercial databases using their Commission accounts.




OFFICE OF TilE SECRETARY (AUDIT 402)                                 SEPTEMBER 20, 2005
                                                                               Page 10

Tracking the departures of contractor staff is an agency-wide problem and OIT is
developing a computer system capable of tracking this. In the meantime, OIT set up
an e-mail alert system, so that when contractors leave the Commission, an e-mail
notification is sent to appropriate Commission staff. During the audit, the Library
signed up for these e-mail notifications.

       Recommendation R
       The Library should improve its procedures for deleting the accounts   of
       separating employees and contractors. The library should obtain weekly
       separations reports from the Office of Human Resources.

ACQUISITIONS
The Library is responsible for ensuring that contracts for approximately 625 hard
copy periodicals, over 15,000 book titles, and 125 external databases are timely
renewed before expiration. At the time of our review, one Library employee was
primarily responsible for all of these subscriptions.
The Library has failed to ensure timely renewal of subscriptions in several
·instances. The failure to timely renew subscriptions has stopped delivery of
publications or prevented access to electronic systems, resulting in staff complaints.
To ensure timely renewal of library subscriptions, the Library could:
           • .Generate a monthly report showing each subscription that is due to
              expire within one to three months;
           • Ensure that all contract renewal documentation prepared by the
              Library is processed three months prior to expiration dates and sent to
              the Commission's Procurement and Contracting office, in line with the
              Library's current policy;
           • Work closely with Procurement and Contracting office specialists and
              contracting officers to monitor the timely completion of contract
              renewals;
           • Work with Procurement and Contracting staff to convert annual
              contracts to multi-year contracts to reduce the workload necessitated
              by annual competitions for renewals; and
           • Establish a follow-up system to confirm that renewal subscriptions
              were received by vendors.

The Library informed us that it now meets with Procurement and Contracting office
staff biweekly and communicates daily to track progress on contracts. Additionally,
the Library now has a new team of four people responsible for all Library contracts.

       Recommendation S
       The Library should improve its renewal procedures, as discussed above.




OFFICE OF TIIE SECRETARY (AUDIT 402)                                SEPTEMBER 20, 2005
                                                                                 Page 11


STAFF ASSISTANCE
The Library does not currently have an experienced law librarian who could assist
Commission staff with research. Based on our survey of Commission staff, almost
half of the respondents (11 of 25) said they would utilize a law librarian, if available,
to assist with legal research.
Commission staff tend to perform their own research at their desks using on-line
tools. For this reason, the Library prefers to use its limited staff resources to assist
staff to perform on-line research. Additionally, if the Library is able to hire a
professional, it prefers an individual who could identify electronic reference services
of use to Commission staff and train and assist staff in their effective use.

       Recommendation T
       The Library should consider ways to provide additional on-line research
       assistance to Commission staff (e.g., training current staff or hiring a law
       librarian).




OFFICE OF THE SECRETARY (AUDIT 402)                                   SEPTEMBER 20, 2005
